<html>
<title> - [H.A.S.C. No. 112-125]THE SECURITY SITUATION ON THE KOREAN PENINSULA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-125]

             THE SECURITY SITUATION ON THE KOREAN PENINSULA

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 28, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>













                                _____

                      U.S. GOVERNMENT PRINTING OFFICE

  73-797                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>  


















                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
          William (Spencer) Johnson, Professional Staff Member
                    Lauren Hauhn, Research Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, March 28, 2012, The Security Situation on the Korean 
  Peninsula......................................................     1

Appendix:

Wednesday, March 28, 2012........................................    31
                              ----------                              

                       WEDNESDAY, MARCH 28, 2012
             THE SECURITY SITUATION ON THE KOREAN PENINSULA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Lavoy, Dr. Peter, Acting Assistant Secretary of Defense (Policy) 
  for Asia and Pacific Affairs...................................     3
Thurman, GEN James D., USA, Commander, United Nations Command, 
  Republic of Korea--United States Combined Forces Command, and 
  United States Forces Korea.....................................     5

                                APPENDIX

Prepared Statements:

    Lavoy, Dr. Peter.............................................    38
    McKeon, Hon. Howard P. ``Buck''..............................    35
    Smith, Hon. Adam.............................................    37
    Thurman, GEN James D.........................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Larsen...................................................    65

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    70
    Mr. Conaway..................................................    71
    Mr. Franks...................................................    71
    Mr. Langevin.................................................    69
    Mr. Turner...................................................    69










 
             THE SECURITY SITUATION ON THE KOREAN PENINSULA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 28, 2012.
    The committee met, pursuant to call, at 10:02 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Good morning, 
ladies and gentlemen.
    The House Armed Services Committee meets today to receive 
testimony about the security situation on the Korean Peninsula. 
Our witnesses are Dr. Peter Lavoy, Acting Assistant Secretary 
of Defense for Asia and Pacific Security Affairs, and General 
James Thurman, Commander, U.S. Forces Korea.
    This is our first opportunity to have a dedicated hearing 
on this topic, but I cannot think of a more opportune time. The 
President's new defense strategy underscores the importance of 
the larger Asia-Pacific theater. Northeast Asia is a dynamic 
region of key strategic importance to the global economy, 
regional stability, and U.S. national-security interests.
    What is more, the coming year will bring a number of 
regional leadership transitions for North Korea, South Korea, 
China, Japan, and Russia. And as some may have forgotten, the 
Korean war isn't officially over; the peninsula remains 
divided. It is home to one of our strongest allies and one of 
the world's most militaristic states.
    In fact, although the North Korean regime is willing to 
starve its own citizens, it maintains the world's fourth-
largest army. North Korea has more than 1 million Active Duty 
personnel and thousands of artillery systems, tanks, armored 
personnel carriers, aircraft, and surface combatants.
    More than 70 percent of North Korea's combat power is 
positioned within 90 miles of the demilitarized zone. This puts 
our 280,000 troops and 24 million citizens of Seoul, the 
world's fourth-largest city, easily within the erratic regime's 
lethal reach.
    Last month, the United States and North Korea announced 
that the regime would stop uranium enrichment and missile 
testing and allow international inspectors to return to North 
Korea's nuclear facility in exchange for nutritional aid.
    But 2 weeks ago, North Korea said they would launch a long-
range rocket into space in April, a clear violation of their 
agreement with the Administration. This is typical behavior 
shown by the regime; a cycle of provocations and 
reconciliations designed to get what they want without giving 
up their nuclear weapons program. It has becoming clear that 
the same aggressive, reckless cycle will continue under the new 
North Korean dictator.
    Although the Chinese and Russian governments publicly 
expressed concern about the planned missile launch, they have 
been unable or unwilling to bring their North Korean ally back 
to the negotiation table. Meanwhile, there are reports that 
North Korea and Iran are working together in the production of 
ballistic missiles.
    In contrast, South Korea is a vibrant democratic nation 
that has one of the world's largest economies and contributes 
to global security.
    Just a few days ago, South Korea hosted the 2012 Nuclear 
Security Summit. Our troops stationed in South Korea form the 
backbone of our mutual defense treaty, promote regional 
stability, and promote and protect U.S. national security and 
economic interests.
    The readiness and posture of U.S. troops on the peninsula 
are key to stopping a dangerous regime from destabilizing the 
region with unwarranted attacks.
    Dr. Lavoy and General Thurman, we look forward to your 
testimony shedding light on the range of security matters 
facing us on the Korean Peninsula, and are glad to have you 
with us here today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 35.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I concur completely in 
your opening remarks about the importance of the region, the 
importance of our alliance with South Korea, and the danger and 
the threat that North Korea poses to security in that region 
and, indeed, security in the world.
    I thank General Thurman for his leadership and for all 
those who serve under him for their part in protecting South 
Korea and trying to maintain the peace in that very, very 
unstable region.
    South Korea is an absolutely critical ally and partner in 
many ways. Our presence there builds and strengthens that 
relationship. We are, you know, pleased we passed the Korean 
Free Trade Agreement. My own state of Washington has a very 
strong Korean-American population that watches closely what 
goes on on the Korean Peninsula. So we appreciate your 
leadership and understand the incredible importance of this 
particular region of the world.
    And obviously North Korea is about as unpredictable and 
dangerous actor as we have to deal with in the world today. So 
it is a complicated job to make sure that we maintain security 
there without rising too much to the provocations and without 
ignoring them at the same time. It is a delicate balance. We 
appreciate your work and your effort to do that.
    I look forward to your testimony, particularly in talking 
about the proposed missile launch that North Korea is talking 
about doing in mid-April; how you see that playing out with 
other partners in the region that we are working with to try to 
contain it; and in particular what you think about China and 
they role that they could play in trying to better contain 
North Korea.
    Is that improving? Are they becoming any more cooperative 
in terms of working with us to try to make sure that North 
Korea stays under control? And no country in the region has 
greater power over North Korea than China, given North Korea's 
dependence upon China's support for energy and other issues. 
That is a critical part of it as well.
    And as the chairman mentioned, the whole region is very 
important to our national security strategy, and a big piece of 
making sure that we make clear to those countries in Asia that 
we are a Pacific power and we will maintain a presence in the 
region; it is the role we play on the Korean Peninsula.
    So I thank you for your leadership and for all you are 
doing to represent us well in that part of the world, and I 
look forward to your testimony.
    Thank you very much.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    The Chairman. Thank you.
    Dr. Lavoy.

  STATEMENT OF DR. PETER LAVOY, ACTING ASSISTANT SECRETARY OF 
         DEFENSE (POLICY) FOR ASIA AND PACIFIC AFFAIRS

    Dr. Lavoy. Mr. Chairman, Ranking Member Smith, 
distinguished Members of the committee, thank you for inviting 
us here today to discuss the security situation on the Korean 
Peninsula.
    General Thurman shortly will provide a detailed assessment 
of the security landscape on the peninsula, and I will 
concentrate on our policy priorities relating to North and 
South Korea.
    For over 60 years, the United States has maintained 
presence on the Korean Peninsula to deter aggression against 
the Republic of Korea and to fight and win should deterrence 
fail. We must never forget that more than 36,000 members of the 
U.S. military gave their lives in support of this mission 
during the Korean War.
    Today the U.S.-Korean alliance continues to be a 
cornerstone of U.S. strategy in the Asia-Pacific region and, at 
its most basic level, the mission of our alliance remains the 
same today as it was 6 decades ago.
    The Department of Defense's rebalance toward the Asia-
Pacific region, as laid out in the defense strategy guidance, 
is a reaffirmation of our commitment to our Korean ally and our 
mission on the Korean Peninsula.
    As President Obama stated during a joint press conference 
with President Lee in Seoul 2 days ago, the United States, as a 
Pacific nation, will play a larger and long-term role in 
shaping the region and its future. And the cornerstone of our 
efforts is our strong alliances, including our alliance with 
the Republic of Korea.
    We will continue to strengthen the U.S.-ROK [Republic of 
Korea] alliance, make our forces in Korea more efficient and 
effective, and enhance presence, power projection, and 
deterrence in the region.
    North Korea's provocative behavior, large conventional 
military, proliferation activities, and pursuit of asymmetric 
advantages through its ballistic missile and weapons of mass 
destruction program, including uranium enrichment, continue to 
present a serious threat to the United States, our allies, and 
the region as a whole.
    It was almost 2 years ago that North Korea brazenly sank 
the ROK naval vessel Cheonan. That event, coupled with the 
unprovoked shelling of Yeonpyeong Island in November 2010, 
provides a reminder that Pyongyang is willing to utilize 
military capabilities with deadly consequences.
    These incidents demonstrate that the United States and the 
ROK need to take further steps to bolster deterrence and 
preserve security. We are working closely with our ROK allies 
and armed forces to ensure that the responses to any future 
North Korean provocation are effective and appropriate and 
integrated into alliance plans, and conducted from an alliance 
perspective.
    Furthermore, through our Extended Deterrence Policy 
Committee, we meet biannually to identify ways in which the 
full range of alliance capabilities, including conventional 
forces, missile defense, nuclear capabilities, strategy and 
doctrine can be leveraged to maximize deterrence.
    The potential for a North Korean act of provocation in 2012 
remains a major concern. The April 15th centennial celebration 
commemoration of Kim Il-sung's birth provides a milestone for 
North Korea to try to show it has become a strong and 
prosperous nation.
    Kim Jong-un, in the process of consolidating power and 
establishing his legitimacy, perhaps through a provocative act 
or display of force, is a real possibility. The upcoming ROK 
parliamentary and presidential elections in April and December, 
respectively, are opportunities for Pyongyang to disrupt and 
potentially influence South Korean political outcomes.
    Our suspicions about North Korea using its celebrations 
this year to enhance its missile program were confirmed when 
North Korea announced on March 16th that it plans to conduct a 
missile launch between April 12th and 16th.
    This planned launch is highly provocative because it 
manifests North Korea's desire to test and expand its long-
range missile capability.
    In addition, the launch, if it occurs, would be in direct 
violation of Pyongyang's international obligations, including 
U.N. Security Council Resolutions 1718 and 1874, which prohibit 
North Korea from conducting any launches that use ballistic 
missile technology.
    North Korea's announcement is also troublesome because only 
2 weeks prior, in a February 29th statement after three rounds 
of bilateral talks, North Korea had agreed to implement a 
moratorium on long-range missile launches. During those 
discussions, the United States made it very clear that a 
satellite launch would be a deal-breaker.
    Let me turn briefly, just--if you permit me one more 
minute--to South Korea. Over the last year, the United States 
and the ROK have sought to transform the alliance so that it 
remains viable not only for the security of the Korean 
Peninsula, but also regionally and globally.
    We frequently consult and coordinate with our ROK 
counterparts across a variety of issues, with immediate focus 
being on preparation for the transfer of wartime operational 
control and the relocation of U.S. forces on the Korean 
Peninsula.
    To ensure the alliance remains well positioned to promote 
peace and stability for decades to come, our two countries have 
a comprehensive plan under Strategic Alliance 2015 framework to 
transition wartime operational control from the U.S.-ROK 
Combined Forces Command to the ROK Joint Chiefs of Staff by 
December 2015. This transition will enable the ROK to take the 
lead role in the defense of its nation while maintaining an 
enduring U.S. defense commitment and capability.
    As part of that effort--and General Thurman will speak to 
this with more depth--we are working to consolidate and 
relocate U.S. forces from the north of Seoul and the Seoul 
metropolitan area to centralized locations south of Seoul.
    The movement of units and facilities to areas south of the 
Han River improves efficiency, reduces costs, contributes to 
the political sustainability of our forward presence, and 
enhances force protection and survivability by placing the 
majority of personnel and equipment outside the effective range 
of North Korean artillery.
    Thank you.
    [The prepared statement of Dr. Lavoy can be found in the 
Appendix on page 38.]
    The Chairman. Thank you.
    General Thurman.

   STATEMENT OF GEN JAMES D. THURMAN, USA, COMMANDER, UNITED 
  NATIONS COMMAND, REPUBLIC OF KOREA--UNITED STATES COMBINED 
         FORCES COMMAND, AND UNITED STATES FORCES KOREA

    General Thurman. Thank you, Mr. Chairman.
    Chairman McKeon, Congressman Smith, and distinguished 
Members of the committee, thank you for this opportunity to 
update you on United Nations Command, Combined Forces Command, 
and United States Forces Korea.
    It is a great honor to lead the soldiers, sailors, airmen 
and marines serving our country in the Republic of Korea. And I 
thank the Members of this committee for their support for our 
warriors.
    The relationship with South Korea is the finest military 
partnership I have experienced in my 37-year career. Together, 
our militaries deter aggression and maintain peace and 
stability on the Korean Peninsula. U.S. military presence in 
the Republic of Korea supports U.S. national interests and a 
key ally in Northeast Asia.
    Since the United States and the Republic of Korea forged an 
alliance in battle over 60 years ago, the Republic of Korea has 
become a vibrant democracy, economic success and global 
security partner currently serving beside us in Afghanistan and 
off the Horn of Africa.
    In stark contrast, one of the world's poorest, most closed, 
and most militarized countries, North Korea, lies less than 20 
miles from the northern districts of Seoul, a city of over 24 
million people. The change in North Korean leadership has led 
to a period of increased uncertainty on the Korean Peninsula.
    The new leader appears to be following the same pattern of 
his late father and grandfather. Examples of this are North 
Korea's recent announcement of their intention to launch a 
satellite with a ballistic missile and their continued rhetoric 
denouncing both the Nuclear Security Summit and alliance 
military exercises. These actions are increasing tensions on 
the peninsula.
    Additionally, North Korea continues to adhere to its 
military-first policy. They maintain the fourth-largest 
conventional military force in the world, the world's largest 
special operating force, and significant long-range artillery 
capabilities. Over 70 percent of their combat power is arrayed 
within 90 miles of the demilitarized zone.
    North Korea also continues to pursue asymmetric 
capabilities, especially in the areas of nuclear, missile, and 
cyber. The development of these asymmetric capabilities and the 
forward stationing of its conventional forces provide North 
Korea the ability to attack or provoke the Republic of Korea 
with little warning.
    Kim Jong-un's recent appearances, including a visit to the 
joint security area, continue to stress his role as military 
commander and further reinforce the importance North Korea 
places on its military-first policy. It is undetermined at this 
time whether or not he will change any North Korean strategies 
or policies in the future.
    An armistice agreement keeps our forces separated from 
North Korean forces. The 16 sending-state members of the United 
Nations Command maintain the armistice from the Republic of 
Korea, promoting stability and investigating any alleged 
armistice violations. The participation of the sending states 
in the Republic of Korea demonstrates a commitment of the 
international community to stability on the Korean Peninsula 
and enhances our ability to successfully deter aggression.
    Our deterrent capability is based on U.S. and ROK military 
readiness, and this is my primary focus. I have conducted a 
thorough review, including two combined exercises, and I have 
determined our forces remain ready to defend the Republic of 
Korea and the peninsula.
    The ROK military is a well-led, modern, well-trained ready 
force. It is also essential that we maintain U.S. force 
readiness at its highest level, given our requirement to fight 
tonight.
    Congress asked me to review and assess tour normalization 
and force relocation initiatives at my confirmation hearing. It 
is my assessment that expanding tour normalization beyond our 
current authorization of 4,645 family members is unaffordable 
under the current construct.
    Our two relocation plans are on track and I intend to 
execute them. I will continue to review these plans to ensure 
they place the right capabilities in the right places to meet 
the operational requirements on the peninsula. The charge to 
maintain the armistice, deter aggression, defend the Republic 
of Korea, and take care of our warriors and their families is 
my primary concern.
    Again, I thank you for your support of our soldiers, 
sailors, airmen, marines, and Department of Defense civilians 
and the families serving in Korea.
    Thank you very much, and I now look forward to your 
questions.
    [The prepared statement of General Thurman can be found in 
the Appendix on page 43.]
    The Chairman. Thank you.
    Dr. Lavoy, you commented about a deal-breaker, shooting the 
rocket. What is our deal? And what happens if they violate it 
and break the deal?
    Dr. Lavoy. Thank you for that question.
    We have reached an agreement with the North Koreans that 
will enable us to provide food assistance to North Korea. And 
we have been under the--it has been very important to us to de-
link humanitarian assistance, including nutritional assistance, 
and other kinds of activities such as operational remains 
recovery operations, from politics and from North Korea's 
provocative behavior. That has been our intent all along.
    However, when we recently reached this deal, this did 
prohibit North Korean missile launches. And we indicated at the 
time that a satellite missile launch we would interpret as a 
missile launch because it would use missile technology.
    The North Koreans have announced that they will launch a 
missile. We are working very closely with allies and other 
partners in the region to try to discourage North Korea from 
launching this missile as they have intended. But we believe 
that this reflects their lack of desire to follow through on 
their international commitments.
    And so we have been forced to suspend our activities to 
provide nutritional assistance to North Korea, largely because 
we have now no confidence that the monitoring mechanisms to 
ensure that the food assistance goes to the starving people and 
not the regime elite; that these monitoring mechanisms--we have 
no confidence that they would actually abide by the 
understandings.
    The Chairman. So we have suspended, then, nutritional----
    Dr. Lavoy. Yes. Yes we have, sir.
    The Chairman. General Thurman, readiness is one of your top 
priorities, as you have stated. The President's new strategic 
guidance shifts the focus to Asia, but to date we haven't seen 
an increase in resources to reflect the pivot. We understand 
that each of our contingency plans is under review to assess 
the level of resources required.
    Assuming you are engaged in a similar activity, can you 
tell us how prepared the U.S. forces are to respond to possible 
aggressive actions by North Korean military? And what are your 
top three readiness issues for U.S. forces?
    General Thurman. Chairman, first off, I can tell you that 
we are prepared to defend the peninsula and can do that. And we 
can repel any type of attack that should the North Koreans 
decide to do that. So I am confident, based on what I have seen 
through the exercises, and the fact of the--that with the 
capabilities we have. And I would be more than happy to go in a 
closed session and discuss specific readiness concerns that I 
have, and can go into further detail on that.
    In response to overall readiness, I would tell you that on 
the U.S. side, the U.S. Army has done a very good job of 
modernizing us with the forces that we have on the peninsula. 
We have the very best equipment, top-of-the-line equipment, and 
we have done the same thing with the United States Air Force 
and the maritime forces.
    So I am confident the capabilities we have there, we can 
defend the peninsula.
    The Chairman. Thank you very much.
    For the Members, immediately following our questioning here 
in open session, we will move into a closed session. And it is 
scheduled for 12 o'clock, but if we finish earlier, we will 
move into it at that time.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Lavoy, could you elaborate a little bit on what you 
think the consequences you think will be of the missile launch 
if North Korea goes through with it; and I assume that they 
will. And they have never been ones to be responsive to any 
sort of international pressure before; hard to imagine this 
would be a first time.
    How do you see that playing out? How will South Korea, 
Japan, others in the region respond to that? And what should we 
do as a result?
    Dr. Lavoy. Thank you for that question, Ranking Member 
Smith.
    We are very concerned about the possibility of missile 
launch that the North Koreans have announced that they would 
indeed conduct. And as you implied, a number of countries in 
the area--and a broader area, in fact--are concerned about 
this.
    The North Koreans have indicated that they will launch the 
missile in a southward direction. And I don't know if we have 
any confidence on the stability of the missile or where the 
actual impact will be. A number of countries are potentially 
affected. The debris could fall on their countries; could cause 
casualties. This affects South Korea, of course, but also 
Japan; Okinawa, the island of Japan. And the intended impact is 
probably somewhere close to the Philippines or maybe Indonesia.
    So this is now an issue that not only concerns the South 
Koreans and, of course, us and the Japanese, but more broadly 
everybody in Asia-Pacific has become concerned about North 
Korea's growing missile capability, especially as they are 
continuing to develop their nuclear-weapons capability.
    I can't speculate on specifically what measures would be 
taken if indeed they conduct a test, but I can assure you that 
we are consulting with all of the countries affected about 
measures to be taken.
    Mr. Smith. Okay. Thank you.
    General Thurman, you mentioned the great partnership we 
have with South Korea and particularly the South Korean 
military. Can you tell us a little bit about the capability of 
the South Korean military?
    It is my understanding that it has improved dramatically 
over the years--and where they are at, and how that might 
impact the size of our presence as we partner with them, and we 
are looking to help them be in the strongest possible position; 
but as they grow stronger perhaps give us a little bit ability 
to downsize or reduce what contribution we would make.
    How do you see that balance playing out?
    General Thurman. Ranking Member Smith, first off, I do 
believe the ROK military is a very professional and competent 
force. They have modernized their ground forces significantly. 
They have done the same thing with their air forces by adding 
their F-15Ks fighters and the KF-16s. So they have done very 
well with that. They have done the same thing as they work with 
our maritime forces, procured three Aegis cruisers.
    And so they are going through that process right now. I 
think they have made some considerable investments as they 
continue to look to improve and modernize their force. And we 
have seen evidence of that.
    As far as our forces, we have an agreed number of 28,500 on 
the peninsula. I would recommend, given the current conditions, 
as we move toward operational control eventually to--in 2015 to 
maintain that level of force. But I think it is also prudent to 
always look at our capabilities and make sure we are 
capabilities based, as we have to offset some of the 
capabilities that they do not have currently.
    Mr. Smith. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you.
    And Mr. Chairman, I want to thank you and the ranking 
member for having this hearing and for your questions on this.
    And General, one of the things that we know is that in 
early 2011 the Secretary of Defense, then Robert Gates, said 
that North Korean ballistic missiles could pose a threat to the 
United States within 5 years.
    What, if anything, does North Korea's upcoming launch of 
the new Unha-3 rocket tell us about its ballistic missile 
technology advances? And to your knowledge, are we within 4 
years of North Korea fielding a functional intercontinental 
ballistic missile?
    General Thurman. Congressman Forbes, first off, the 
continued development and willingness of the North Korean 
regime there to test ballistic missiles--and we have seen that 
continue for a period of time--is a major concern of ours.
    It has the potential to destabilize the region. And, as you 
point out, left unchecked if their development continues, poses 
a serious threat to us.
    And it is something that I think we have got to maintain 
close vigilance on and, obviously, work to try to dissuade them 
from the continued development of that and maybe focus on 
feeding their people, is what I would say.
    And I would be more than happy to go into full details of 
what we are seeing in a closed session on their full 
development of what we know.
    Mr. Forbes. General, are there any projections on timetable 
that you could give outside of a classified setting as to what 
we have heard or seen as far as the projections of when they 
will be on target for these missiles.
    General Thurman. Congressman, I would not want to go into 
the exact timetables in here, but it is of concern with their 
continued willingness to test this capability.
    Mr. Forbes. And can I ask one other question? This is kind 
of along what the ranking member said; when we do know that 
there is a very good cooperation between the United States 
military and South Korean military, and that they do a 
wonderful job there.
    But sometimes no good deed goes unpunished, and sometime 
the people outside of the military are not always as 
appreciative in some of the areas that we are.
    How do you assess the public opinion in South Korea outside 
of the military-to-military contacts as far as our 
relationship? Is that better, worse? How do you project that?
    General Thurman. Congressman, I believe the ROK-U.S. 
alliance is as strong as it has ever been. And public opinion 
over there welcomes U.S. presence. And we are a stabilizing 
influence in that region.
    And I think it is very important. There is no doubt this 
alliance was forged on a very bloody battlefield and we learned 
many lessons. And I think just by having forward presence that 
is a calming effect. And I have talked to many of the leaders 
in the ROK Government and the normal ROK people and they 
welcome our presence there.
    Mr. Forbes. Also, last week, the South Korean president 
announced that he thought South Korea would soon reach an 
agreement with the United States on extending the missile 
range, which is currently limited, as I understand it, to 300 
kilometers.
    Can you tell us what your assessment is about South Korea's 
missile requirements? And do South Korea's military leaders 
view the need for such an agreement as urgent? And what is your 
take on that?
    General Thurman. Congressman, I will defer to Dr. Lavoy, 
but they have expressed desires to me to have a longer-range 
missile.
    Mr. Forbes. Doctor, what are your thoughts?
    Dr. Lavoy. Thank you. I would be happy to add to that.
    We and the South Koreans have had very good discussions 
about dealing with North Korea's growing missile inventory and 
the threat that that poses. And we have a process that we have 
in place. There have been numerous meetings. And we have 
identified a comprehensive array of measures to take to deal 
with this threat.
    And I think this is an area where we really are in sync 
with the South Koreans. And this process is not concluded, 
however. And I think we are nearing conclusion of this. In the 
closed session we could talk to you a little bit more about 
that.
    Mr. Forbes. Thank you.
    Mr. Chairman, thank you. And I yield back the balance of my 
time.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Can you outline for us the concern of proliferation of WMD 
[Weapons of Mass Destruction] out there in the peninsula? Can 
you talk to us about whether our current policies and programs 
to effectively counter proliferation, in other words, how are 
the countries around North Korea feeling about their ability to 
have nuclear arms?
    And do you think that that--are they staying close to the 
whole issue of not proliferating, or do you think that they are 
getting a little bit antsy because maybe they see that things 
are moving along faster than we had hoped?
    Dr. Lavoy. Representative Sanchez, I think you have put 
your finger on a very important issue.
    The whole region is concerned about the North Korea's 
missile and nuclear programs. These are disconcerting to 
everybody because with extended range of missiles potentially 
North Korea would have the ability to put nuclear warheads on, 
and that affects not only their neighbor, South Korea, but 
affects other countries in the broader Asia-Pacific area.
    Ms. Sanchez. And we have sort of been able to hold them off 
from really building anything up, most of those countries, 
saying that we were going to contain this or we were going to 
be the pushback on that. But how are they feeling now?
    Dr. Lavoy. Well, it has been a consistent goal of the 
United States and other countries in the region to discourage 
North Korea from proceeding with its WMD programs.
    And in fact it is this objective that led us to these talks 
that we had on the 23rd and 24th of February in Beijing to get 
the North Koreans to commit, to suspend, put a moratorium on 
flight tests of long-range missiles, to continue work on 
missiles.
    That is why we and the region are so troubled by this 
possible missile test going forward.
    Ms. Sanchez. Turning to another subject, the subject of 
cyberwarfare. I know that North Korea is increasing its effort 
in that arena. And I know that we have a very close 
relationship with South Korea and that we share a lot of 
information with them.
    What is the process or what--are we working hand-in-hand? 
Are we doing enough with them to ensure that we, again, contain 
or counterattack what may be coming out of North Korea with 
respect to cyberwarfare?
    General Thurman. Congresswoman Sanchez, in a closed forum I 
will be more than happy to go into the details of that. But 
first I would tell you that we work hand-in-hand with the ROK 
military on the protection of our networks; and particularly 
looking at interoperability, I have come to realize that cyber 
is a key warfighting domain. And it is important as our air, 
maritime, and ground operations.
    And so, yes, we have raised the awareness on that, and it 
is something that we are looking at on a daily basis with the 
ROK military.
    Ms. Sanchez. Mr. Chairman, the other questions I might have 
would probably be a little bit more sensitive and more for a 
closed session. So I will end right there, thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And thank you General for being here; and Secretary.
    I have a unique perspective. I was honored to be on a 
delegation with former Congressman Curt Weldon, where we 
visited Pyongyang. So I have seen the contrast between the 
totalitarian state of the DPRK [Democratic People's Republic of 
Korea] and to see the success of the Republic of Korea. And it 
is really inspiring as we visit Seoul, we have had to travel by 
helicopter because of the heavy traffic of brand new SUVs 
filling up the six- and eight-lane boulevards; quite a contrast 
from Pyongyang.
    But it is really a classic example of the success of free 
market democracy over totalitarian government. At the same 
time, it is really led to a concern that I have about the role 
of China and Russia.
    It would seem like it would be in their interest that there 
be a level of security, economic security, military--to have 
some reforms in North Korea. But what is the role of China and 
Russia, and particularly with the transition in government, 
what have they--how have their actions been matched?
    Dr. Lavoy. I could answer that first, Congressman.
    China, as the chairman indicated, has a great deal of 
influence on North Korea; probably more than any other country 
in the world. And we look to China to use its influence 
constructively to pressure and cajole the North Koreans to 
adopt the reforms that you mentioned, which are really critical 
to meet the needs of the people, which is really a human 
tragedy that is occurring in North Korea; but also for North 
Korea to abide by the standards of international conduct and 
not to pose the threats to the broader Asia-Pacific region that 
it does.
    We have not been entirely satisfied with China's activities 
in this regard, but I can assure you this is an issue that we 
do discuss with China regularly. And we hope that China will 
take a more constructive approach. We also discussed this with 
Russia, with other countries in the region as well.
    Mr. Wilson. And I know that South Korea--actually it is my 
understanding through investments in China--employs 2 percent 
of the people of China. That is a lot of people. And it would 
seem like they would see the benefit of having a more normal 
regime in Pyongyang, so I appreciate your efforts there.
    I also like to know your assessment, each of you in regard 
to the transition from Kim Jong-il to Kim Jong-un. It is my 
understanding in the foreign affairs committee that we learned 
that the new leader recently placed his military on high alert, 
General; and with the understanding that it was not to prepare 
for conflict, but to prepare for your surrender.
    Could you comment on such bluster?
    General Thurman. Congressman Wilson, we see quite a bit of 
rhetoric on a daily basis coming out of North Korea. My sense 
is that this succession has occurred with Kim Jong-un, the 
young leader.
    He has been given one title, as Supreme Commander of the 
military. I think he is being closely advised by his uncle, 
Jang Song-thaek, and some of the other old elite advisers that 
are shepherding him along, is my sense.
    It is unclear at this time, as I believe, of what policies 
he is going to follow. He has been more active, and we have 
seen him more out. But I could go into specific details in a 
closed forum on this. But my sense is the policies that they 
are--have taken with their military first policy is not going 
to change.
    Mr. Wilson. And again, I appreciate you effort so much; and 
to have to face bluster when in fact indeed North Korea could 
develop itself into a positive entity.
    And a final point I want to make: I had the privilege of 
visiting with troops from the Republic of Korea in Afghanistan 
for the provincial reconstruction teams. Indeed, these are 
professionals; people who reflect well on their country in the 
values of democracy and freedom.
    Thank you.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Gentlemen, back to some of the operational issues in South 
Korea-- probably for General Thurman--but can you talk a little 
bit about the tour normalization, the decision to delay or to 
stop the tour normalization; a little bit about the cost 
estimates that you foresaw, or you foresee, and what that might 
mean in the future for normalization?
    General Thurman. Well Congressman, first off I was asked to 
go do a good review of the current policy of tour 
normalization.
    We are authorized 4,645 families, and that was a cap that 
was put on this last National Defense Authorization Act. What I 
determined when I got over there, given the cost of bringing 
additional families--that would be additional requirements and 
additional costs--I do not think, under the current 
environment, that that is feasible.
    So I am okay with leaving 4,645 families. When we built 
Camp Humphreys, which is part of the Yongsan Relocation Plan 
and the Land Partnership Plan, that plan was based on the 
authorized 4,645 families. So I see staying at that right now 
is what I would tell you.
    The biggest issue that I have is the constant turnover of 
personnel, primarily Army; because we are on 1-year tours. And 
you can imagine the turn that is ongoing every day. We 
typically lose about 600 to 700 soldiers a month that are 
rotating either in or out, back to the continental United 
States.
    Mr. Larsen. About every month there is about 600 go home, 
about 600 hundred who come----
    General Thurman. Yes, sir. Yes, sir.
    So I have asked General Odierno and the Army to look at how 
we can build readiness at best value, and see what we can do. 
And I am very mindful of the cost. And I don't want to create a 
requirement that is not operationally focused.
    Mr. Larsen. Good. On the relocation plan, what do you see 
as anticipated problems? Do you see any more anticipated delays 
in implementing the relocation plan, either for Yongsan or just 
the land partnership?
    General Thurman. Congressman, first off, the Land 
Partnership Program was a U.S. initiative.
    Mr. Larsen. Right.
    General Thurman. That is on track.
    I am, in fact, looking at some of those capabilities to 
make sure the positioning is right on the peninsula, i.e., 
fires brigade for instance, that I am looking at right now.
    The second program, the Yongsan relocation, it was a little 
behind. We have got that back on track. We will have both of 
those programs completed by 2016, is what the estimate is right 
now.
    And I would be more than happy to provide you the cost 
breakout and I would like to take that for the record if I 
could.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Larsen. I would appreciate that. So you say you still 
anticipate by 2016. Anything in the FYDP [Future Years Defense 
Program] that causes you concern about meeting that goal?
    General Thurman. The only thing which is not associated 
with the land partnership program or the Yongsan relocation--
there is a requirement in the 2013 budget for a battalion 
headquarters, for a chemical battalion that is going to be 
deployed from the states as part of force posture adjustments 
to the peninsula. And that is an additional requirement.
    Mr. Larsen. So not originally anticipated; so that is added 
in the 2013; so you have to find some way to accommodate that?
    General Thurman. That is correct, Congressman.
    Mr. Larsen. Yes, good. Thank you. That is all I have.
    General Thurman. Yes sir.
    Mr. Larsen. I yield back, Mr. Chairman.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Dr. Lavoy, it is very timely that we are having this 
hearing.
    As we look to the news of what has just been coming out of 
the talks the President attended. We know that the news also 
reported on Monday--for example this is a CNN story I am going 
to be reading from--``Just hours after the United States warned 
that North Korea would achieve nothing with threats or 
provocations, Pyongyang moved a long-range rocket it plans to 
test fire, to a launch pad, Monday.''
    Now, North Korea's threat of a missile launch can only be 
an effort to test, perhaps, ahead of deployment, an 
intercontinental ballistic missile that would have capability 
of reaching the United States.
    Secretary Gates said as he was leaving that one of his 
concerns was the rising threat of North Korea; that it could in 
fact get to the point where it could threaten mainland United 
States. We also know of its, of course, nuclear weapons 
program, which makes their missile program that much more of a 
concern.
    Also Monday, news broke of the President having a 
conversation with an open mike, where the President says to 
Medvedev, ``On all these issues, but particularly missile 
defense, this can be solved, but it is important to give me 
space.'' This is the President speaking.
    Medvedev says, ``Yes, I understand, I understand your 
message about space; space for you,'' meaning our President.
    Obama says, ``This is my last election. After my election I 
have more flexibility.''
    Medvedev says, ``I understand. I will transmit this 
information to Vladimir.''
    Now, obviously, the concern that everyone has is that, as 
we talk to the issue of North Korea; as we talk to the issue of 
their missile program; their nuclear weapons program--Gates 
indicating that they are a rising threat to mainland United 
States--it raises the question of what is the President's 
secret deal to limit our missile defense system?
    I mean, the President is talking to another world leader 
about once he gets through the election, his last election, 
then unfettered from the electorate, he will be free to have 
flexibility on our missile defense system. And we are all very, 
very concerned as to what this secret deal could be as we face 
the rising threat of North Korea.
    Is this limits on the deployment of our missile defense 
system? Limits on our use of our missile defense system? Limits 
on our operation of our missile defense system?
    I mean, clearly you can understand how everyone would be 
concerned as we look to the news of the rise of North Korea and 
the threat that it provides to mainland of our President making 
any deal, especially a secret deal, that is only to be revealed 
after the election, that might affect our missile defense 
system.
    Dr. Lavoy, you are the Acting Assistant Secretary of 
Defense Policy for Asia and Pacific Security Affairs.
    Dr. Lavoy, what is in this secret deal? Are we to be 
concerned about the effects of limiting our missile defense 
system, our only protection that we have with respect to the 
emerging and rising threat of North Korea to our homeland?
    Dr. Lavoy. Congressman, I am not aware of any secret deal. 
We do take the growth of North Korea's missile capability very 
seriously. As I indicated, we are working very closely with 
South Korea operationally and with other countries in the 
region----
    Mr. Turner. Dr. Lavoy, before the time expires----
    Dr. Lavoy. Yes.
    Mr. Turner. Since you said you are not aware of any secret 
deal, perhaps it is not a secret deal to you. It is a secret to 
us until it was caught on the microphone with the President, so 
let me re-ask you the question.
    Are you aware of the deal the President has with Medvedev 
and with Russia that would be revealed to us after the election 
that perhaps isn't secret to you, that would limit our missile 
defense capability either in deployment, use, or scope, that of 
course is a serious concern to this committee as we look to the 
rise of North Korea?
    Are you aware of the subject matter of the President's 
missile defense deal, secret or not, with the Russians? And if 
you are not, why are you not?
    Dr. Lavoy. No, sir, I am not.
    And I can assure you that we do believe that missile 
defense and our Phased Adaptive Approach to missile defense in 
the Asia-Pacific region is very much alive. It is very much 
part of our comprehensive approach to deal with the threat 
posed by the North Koreans. It is something we are committed 
to.
    And in the closed session I would be happy to describe in 
detail the steps we are taking----
    Mr. Turner. Dr. Lavoy, you are an appointee by the 
President, are you not?
    Dr. Lavoy. Yes, I am, sir.
    Mr. Turner. Okay.
    I would greatly appreciate it if you would ask the 
President what are the details of his deal with the Russians 
concerning missile defense that cannot be disclosed until after 
the election; and please report it back to this committee, 
because we have grave concerns as to a President having any 
restriction on our defensive systems, especially with, as you 
have eloquently described, ``the rising threat of North 
Korea.''
    I would greatly appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And thank you both for being here this morning.
    General, it is always good to see you.
    I guess one concern that I have and others have had as well 
has been whether or not there is any intention of drawing down 
further the presence of U.S. troops in theater.
    Is there any plan or are there any contingency plans to do 
that in light of all of the issues, including sequestration, 
that would play into that kind of scenario?
    General Thurman. Congressman Reyes, there are no plans that 
I am aware of that draws down any forces on the peninsula. We 
are staying at 28,500. There may be some adjustments inside 
those capabilities. But those adjustments would be to improve 
our overall force posture. But there are no plans that I am 
aware of.
    Mr. Reyes. And in terms of the agreement that we have with 
the--particularly for the stability of the Korean Peninsula, 
with the South Koreans--are there any concerns?
    And I apologize for not having been able to be here. I had 
another meeting that I had to be at. But are there any changes 
that we contemplate based on the new leadership in North Korea, 
in that partnership with the South Koreans?
    General Thurman. Congressman Reyes, first off, I believe 
the alliance is as strong as it has ever been, particularly our 
military partnership.
    The concerns that the South Koreans relay to me is 
obviously they are very concerned about the continued 
willingness on part of the North Koreans to continue to test 
ballistic missiles and the pursuance of nuclear capability. 
That causes great angst and concern.
    And I think right now that is probably one of the biggest 
things. Obviously they have not forgotten the sinking of the 
Cheonan that occurred in March of 2010 and the shelling of the 
Yeonpyeong Island that occurred in November of 2010. They are 
very watchful of that and mindful of it. They have put a lot of 
emphasis on their military for overall readiness, I will tell 
you that.
    Mr. Reyes. In terms of the progress that had been made 
prior to the demise of Kim Jong-il, are there any indications 
that those kinds of efforts or talks are taking place, in lieu 
of the concerns that you just expressed of the sinking and the 
shelling of the--by the North Koreans? Is there any prospect 
that those talks of economic opportunities being sought out by 
South Koreans at this point?
    General Thurman. Congressman, I have not seen any great 
change as a result of the succession with the new leader. I 
would welcome any discussion, obviously. I think if the parties 
can discuss their differences; that is always a good thing. But 
I have not seen any change.
    I defer to Dr. Lavoy on any policy issues in regard to 
that.
    Mr. Reyes. All right.
    Doctor.
    Dr. Lavoy. I could add to that, Congressman.
    North Korea is an authoritarian regime, of course, and it 
has--political successions are extraordinarily difficult when 
you don't have a representative government, which is the case 
there, of course.
    And so what we are seeing now and what we anticipate is 
provocative behavior because, unfortunately, this seems to be 
the only way that the North Korean regime can try to 
demonstrate its bona fides to a population that is suffering 
terribly. They can't meet the needs of the population, the 
nutritional or educational or other needs of the population, so 
they resort to provocative behavior.
    And despite efforts to stabilize relations with the North 
and to de-escalate tensions on the peninsula following these 
very dangerous activities in the past; now, once again, because 
of an internal political dynamic on North Korea, it appears 
that they are once again inclined to take these provocative 
steps, most specifically the announced long-range missile 
ballistic test flight.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I was just going back and forth with my aunt, who has got a 
nephew serving under you over there in Korea, a young man named 
Jake Butler. So forgive me for tasting, General. But I know you 
were also the commander of the 3rd I.D. [Infantry Division] in 
Georgia, and we are very proud of Fort Stewart and what you 
ladies and gentlemen accomplished over there in representing 
Georgia well, and the United States well.
    I want to speak just very briefly about the JSTARS [Joint 
Surveillance Target Attack Radar System] out of Robins Air 
Force Base that we are very, very proud of. And could you just 
speak to the JSTARS program and what it means in a potential 
conflict with North Korea?
    General Thurman. Congressman, first off, in respect to 
JSTARS, that gives us moving-target capability; without going 
into the classified portion of it. But, more importantly, what 
I am looking for as a commander is I have a set of priority 
intelligence requirements, and I welcome any system that is 
going to help me answer those requirements.
    Mr. Scott. Yes, sir.
    General Thurman. And it is an added capability that does 
help us on the peninsula.
    Mr. Scott. Well, my cousin is honored to serve under you as 
a commander. His mom wanted to ask why he was issued live 
ammunition. I would like to ask why he didn't already have it. 
But we will answer that behind closed doors.
    Thank you, Mr. General.
    I yield the remainder of my time.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I apologize to you 
and the witnesses for being tardy. I was in a hearing with the 
Secretary of Education and wanted to hear him.
    But no disrespect to you gentlemen--thank you for your 
service to our country.
    Dr. Lavoy, within the confines of this public discussion, I 
wanted to get the thinking behind the linkage of the missile 
test that is coming up, presumably next month, and our decision 
about whether to execute and follow through on the food-aid 
agreement with North Korea.
    I am not sure what I think about that idea, but let me play 
devil's advocate here. One argument might be that linking the 
two punishes the North Korean people without having any 
significant impact on the North Korean leadership; would 
further intensify anti-U.S. or anti-Western hostility, and 
therefore strengthen the hand domestically of the North Korean 
leadership to engage in such extra-legal and unwelcome 
activities on the international stage.
    How would you assess that argument and respond to it?
    Dr. Lavoy. Well, I can tell you that it is regrettable that 
the food aid is not moving forward. The North Korean population 
really needs nutritional assistance, and we are prepared to 
provide that to North Korea.
    The real motivation and the linkage as you--this is not 
intended to be linked to anything else; to any movement by the 
North Koreans. However, the fact that North Korea so brazenly 
violated commitments that it just so recently agreed to in the 
discussions in Beijing, and its commitment that it announced on 
February 29th on Leap Day, indicates that they are not reliable 
and we cannot expect them to meet other international 
commitments, including the commitments that they have agreed to 
that are associated with the provision of nutritional 
assistance to the needy population in their country.
    Mr. Andrews. I understand the basis, the rationale that, 
you know, they dishonored their agreements so they really 
abandoned their right to claim what they would get under the 
agreement.
    My question really more is whether we think that is going 
to be effective in altering the behavior of this government, or 
whether it is going to worsen our position.
    You obviously think it is going to be effective, relatively 
speaking?
    Dr. Lavoy. Well, Congressman, we don't believe that 
nutritional assistance should be a lever to achieve a political 
outcome. It is a humanitarian effort that we have intended. 
Again, it is regrettable that this has stopped.
    So by the reason, again, why we are not providing that food 
assistance at this point is because our confidence in their 
ability to meet their agreements has been diminished. We do not 
use it as a lever to change their policies.
    Mr. Andrews. Okay. They might see it differently, but that 
is okay.
    Again, within the confines of this public discussion, if 
either of you would be pleased to answer it, how do you assess 
the role of the People's Republic of China in dealing with this 
outlaw behavior by North Korea? Are they more helpful than not? 
Are they more harmful than not? Are they neutral?
    Put another way: What do you think the optimal behavior of 
the PRC [People's Republic of China] toward this problem is, 
and how close are they to obtaining it?
    Dr. Lavoy. Congressman, I think, as we have discussed 
already, China has potentially a great deal of influence, and 
probably more than any other country, on the regime in North 
Korea.
    So of course, we, for a long time, have been talking to the 
Chinese, consulting regularly with the Chinese, about how best 
to influence the North Koreans in a manner to affect reforms at 
home and to conform their international behavior to acceptable 
standards.
    Objectively, we can see that North Korea continues to 
behave outside the rules of normal and acceptable international 
conduct. So that influence has not been as effective to date as 
we would have liked. We continue to consult with the Chinese 
and with other countries that have relations with North Korea 
about North Korea's behavior.
    And as our partnership with China deepens, we hope that 
China will see the interest in the spirit of this partnership 
and in the interest of----
    Mr. Andrews. I am really hopeful of that, too. Unless you 
see everything as a zero-sum game between the U.S. and the PRC, 
which we certainly don't and I hope they don't, this kind of 
instability in their own region can't possibly be good for the 
PRC. And it is certainly not good for the rest of the world.
    So, I hope that we would continue those efforts to find 
common ground that would encourage North Korea to act within 
the community of nations.
    Thank you. I yield back.
    The Chairman. Thank you.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman and ranking member, also.
    Annyeong haseyo, and I just want to also say ``steadfast 
and loyal.''
    General Thurman, great to see you again.
    I want to kind of dovetail off of what my colleague, Mr. 
Andrews, talked about, because I was stationed in Korea in 1995 
at Camp Casey up in Tongduchon. And I think that we continue to 
see this series of saber-rattling and us giving in, and more 
saber-rattling and us giving in; and no honoring of their 
commitments and their promises.
    So Dr. Lavoy, my simple question is: Do you ever see an end 
to this Pavlovian experiment of international extortion that is 
coming out of North Korea?
    Dr. Lavoy. Well, we certainly hope to see the end to that, 
and we are doing everything possible to do this, but it is a 
very recalcitrant regime.
    And as I indicated, because of their own internal 
compulsions, which are completely dysfunctional and really out 
of step with the 21st century, that leads them to this 
provocative international behavior. And probably only when they 
can reform internally can they get international behavior to 
align to acceptable standards.
    Mr. West. But does there come a time when our perceived 
benevolence, which they translate into weakness, must be ended 
in order for us to stop this crazy cycle of international 
extortion; because that is how I see it. I am just a simple guy 
from the inner city of Atlanta, Georgia, and that is how we 
call it.
    Dr. Lavoy. Well, Congressman, I wouldn't expect you are a 
simple guy. But let me just say that I wouldn't characterize 
our approach as benevolent or weak at all.
    Mr. West. But they perceive it as being weak.
    Dr. Lavoy. I am not sure that they do, sir.
    Mr. West. There are quotes in some of the papers coming out 
of DPRK that say so.
    Second question, and also dovetailing off of my colleague, 
do you believe that the incredible debt situation where China 
holds 28 percent to 30 percent of our debt; the trade imbalance 
situation--I mean, we are almost at an economic disadvantage 
against China--does that have an adverse effect on our foreign 
policy in dealing with North Korea?
    Dr. Lavoy. As I indicated just a moment ago, we do have a 
strong partnership with China. We are consulting with China on 
a range of issues, particularly on North Korea because China 
does have so much influence. And we believe that China can be 
an effective partner and can provide more influence on the 
North Korean regime than it has been to date, and we are 
working with them----
    Mr. West. But do you think that China sees itself as being 
able to be somewhat belligerent because of the fact they do 
have this control of 28 percent of our debt and a little bit of 
a trade imbalance advantage over us? Do you think that that 
gives them some leverage?
    Dr. Lavoy. Congressman, that is not apparent to me. We talk 
with China about real-world international problems and how to 
deal with them.
    Mr. West. And General Thurman, commanders like yourself 
always taught me two questions that you have to answer when you 
are briefing a plan. Sir, what do you see as the most dangerous 
and most likely courses of action coming out of North Korea?
    General Thurman. Thanks, Congressman West.
    The first thing I worry about every day is a miscalculation 
on somebody's part that causes a conflict that we hadn't 
planned for. That is the first thing.
    Secondly, I worry about the asymmetric capabilities that 
the North Koreans have, whether it be with special operations 
forces or the introduction of chem-bio and then cyber. Those 
are some of the things that I worry about. I think we are 
postured very well to repel an attack. However, they have a 
considerable number of indirect fire systems. And as expansive 
as Seoul is, any round coming our direction could potentially 
do damage.
    So I worry about that. So the importance of staying ready 
and remaining vigilant is very important for both ROK and U.S., 
and that is 24 hours a day, 7 days a week.
    Mr. West. Kamsa Hamnida.
    And Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    I would like to thank our witnesses for being here this 
morning and testifying. I had to spend most of my--this 
committee in another committee where I am Chairman of the 
[Subcommittee on] Space and Aeronautics, so I haven't been able 
to follow the entire line of questioning.
    But I do want to--well, first of all, I am sure Chairman 
Wittman talked about his PACOM visit. I was a part of that, 
when we did that this past August, and it was a wonderful trip. 
And the Republic of Korea was on there, along with the 
Philippines and Japan.
    And everywhere we went, one of our common denominators of 
concern was China, and also, ``What was our U.S. posture going 
to be?'' And if we moved our posture to where our allies 
thought that we were maybe retreating or just falling back a 
little too far for their general welfare, that then they would 
have to do whatever they have to do to take care of the 
security and stability of their population.
    So, I guess what I am saying is I hope we are focusing on 
China. I mean, I know the President was talking about it being 
an emerging threat; that and cybersecurity; the Middle East; 
you know, making sure that the shipping lanes around the world 
are continuously open because our economic and national 
security depends so much on it.
    And then next thing you hear, we are talking in another 
hearing and we hear that, I don't know--this is a separate 
conversation, actually, that, you know, the Chinese are even 
building icebreakers to go up into the Arctic so they could 
begin claiming the North Seas for those resources. So, that 
causes me some concern, and hopefully we will perhaps continue 
to focus on their behavior and expose it.
    And all the while, you know, they are increasing their 
spending on their military and we are cutting a half a trillion 
over the next decade, and we are staring down the barrels of a 
double-barreled shotgun stuck at our head with the possibility 
of sequestration. And that scares me.
    But I guess I will just switch gears. And from a CPA 
standpoint, I like to see the cost-benefit. And I know we are 
doing some realigning from Yongsan, and we are moving further 
back. I had a chance to visit Yongsan, and I didn't have a 
chance to visit the new site, I guess, where Camp Humphreys was 
going to be.
    Are we getting the best value for our dollar? I mean, we 
have kind of kept the peace for them for decades now. And I 
know typically wherever the U.S. military has been, that 
footprint is one of the most valuable pieces of property left 
on that continent or in that country. So are we doing a fair 
exchange? Are they paying for their fair share? Or are we 
giving up a nice piece of property just for false appeasement?
    General Thurman. Congressman, thank you for that question.
    First thing I would tell you--I think we are getting a very 
good deal with the ROK Government. The property of Yongsan; we 
will keep a residual in Yongsan because that is important with 
our day-to-day business that we do. I interface daily with the 
ROK chairman of their military, as well as their Ministry of 
Defense. So we will have a small footprint there.
    And, of course, the U.S. embassy will eventually relocate 
out to Yongsan on some property there.
    In regard to the costs, there are shared costs. And I would 
be more than happy to give you a detailed cost breakout of that 
so you can see. But I believe we are getting a very good deal. 
And I believe that the ROK Government welcomes U.S. presence.
    You just spoke of China. We are a stabilizing influence as 
long as we are forward-deployed. And that would be something 
that needs to be factored in all of these discussions because 
that is important to maintain stability in that region.
    But I think overall the ROK has been more willing--and you 
can go back to 1991. They have continued to increase their 
spending to assist U.S. forces that are stationed there.
    Mr. Palazzo. Well, thank you, General.
    And I know on our trip over there that they were very 
receptive and they were very supportive of U.S. troops and ROK.
    So keep doing a great job. I enjoyed seeing you. I have 
already made it aware to Chairman Wittman I would like to go on 
another PACOM trip, because it is such of grave importance. You 
know, it is important we gather as much information as possible 
and we come back better prepared for hearings just like this.
    So thank y'all both.
    I yield back.
    The Chairman. Thank you.
    Ms. Hochul.
    Ms. Hochul. Thank you, Mr. Chairman. I, just like my 
colleague, I am a little disadvantaged. I just came from a 
markup in Homeland Security, so I don't know what went on 
before me, although the question I had, I think, has been 
addressed.
    I was concerned about the overall cost of realignment of 
U.S. forces in South Korea and how much is being funded by the 
Republic of Korea.
    So if we can get that information--is it 20 percent? What 
are we talking here? I don't need raw numbers today; I would 
like them in the future. But, you know, what is their shared 
responsibility for that and what kind of numbers does that 
equate to?
    General Thurman. Congresswoman, first off, on Yongsan 
relocation, the ROK Government is paying for that.
    Ms. Hochul. Okay.
    General Thurman. Now, there will be some ancillary costs 
associated with our communications and specific requirements 
and related to our unique requirements for our communications 
networks. That is a responsibility of ours, as well as some of 
the O&M requirements and SRM requirements that will be required 
in the future.
    The Land Partnership Program was a U.S. initiative and that 
was funded by the U.S. primarily. We did use special-measures 
funding from the ROK Government to assist in that, but I would 
be more than happy to give you the detailed cost breakout.
    Ms. Hochul. Okay, thank you very much.
    Mr. Chairman, I yield back the balance of my time. Thank 
you.
    The Chairman. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I was interested in your comments, General, about what 
keeps you up at night: worrying about the special op forces 
that North Korea has; their cyber, as well as the weapons of 
mass destruction capabilities. And those are the things that 
stood at me as I read your testimony, as well.
    I have to admit, I did not realize that North Korea has the 
world's largest special operations force, over 60,000 trained 
and loyal soldiers at the President's beck and call at any 
moment. So that is very concerning.
    But I wanted focus in on the other two areas. You say, 
regarding the cyber, that the newest addition to their arsenal 
is the growing cyberwarfare capability; that North Korea 
employs sophisticated computer hackers trained to launch 
cyberinfiltration and cyberattacks against the ROK and U.S.
    Such attacks are ideal for North Korea, providing the 
regime a means to attack the Republic of Korea and U.S. 
interests without attribution; and have been increasingly 
employed against a variety of targets, including military, 
governmental, educational, and commercial institutions.
    So I was wondering what are we doing to help counter this 
threat?
    General Thurman. Congresswoman, first off, that is correct 
there what you just read. And it is an area that I have placed 
greater emphasis on to make sure, first off, our networks are 
properly protected. And I would be more than happy in a closed 
session to go into the detailed capabilities of what the threat 
is that we see in a closed forum.
    Mrs. Hartzler. Okay.
    I especially am concerned to hear that they have already 
deployed this against our military, so I would like to know 
more about what actually happened there.
    All right; so let me move to the weapons of mass 
destruction question, saying that--you list that as a 
significant concern; and that you assess the capability to 
manufacture, transport and deliver a variety of both persistent 
and non-persistent chemicals to include nerve, blood, choking, 
and blister agents; could be delivered through artillery or 
missile systems; and that if they were to employ them it could 
use highly pathogenic agents such as anthrax or plagues.
    And certainly in dense populations, this would be a 
tremendous problem.
    So I guess my question is: Are our current non-
proliferation and counter-proliferation policies and programs 
effective tools to mitigate these threats? And what more can we 
do?
    And so--General or Secretary.
    General Thurman. Congresswoman, first thing, in regard to 
our protection of our men and women who are serving on the 
peninsula, I have placed a lot of emphasis on our overall 
chemical, biological defense training. We train on that on a 
frequent basis. I am confident we have the right capabilities; 
that is the first thing.
    Secondly, in terms bio-detection, we have placed a lot of 
emphasis on our installations with our biological-detection 
capabilities. And so it is important to keep that current. We 
do work with our ROK forces. They are very good with their 
chemical capabilities. And we train in those types of 
environments. So I am confident in regard to that.
    I do not see the North Koreans giving up this capability. I 
think it is something we are going to have to continually deal 
with given the current set of conditions.
    Mrs. Hartzler. Would you like to add to anything?
    Dr. Lavoy. Thank you very much, Congresswoman.
    I think what the Department of Defense brings to bear, and 
particularly what General Thurman and his capability in theater 
brings to bear, are three very important things; number one, a 
strong deterrence capability to deter the north from using 
these horrendous weapons of mass destruction; secondly, as he 
indicated, a very robust defensive capability. Should these 
weapons be used, General Thurman and his forces, together with 
the South Koreans, have a good defensive capability to deal 
with the consequences if these were to be used.
    And to complement both of these and really enhance that 
deterring capability is this constant operational readiness of 
our forces in the theater. So this is what the Department of 
Defense brings to bear against this.
    But I have to agree with you, North Korea is an outlier 
today in the world. The President was just in Seoul over the 
last couple of days with the Nuclear Security Summit. Over 50 
of the world's leaders were there. And everybody is getting 
aboard to eliminate weapons of mass destruction and decrease 
that danger. Again, North Korea's an outlier.
    So in addition to what we are doing in the Department of 
Defense, we are also supporting a broader international 
diplomacy and non-proliferation efforts to try to deal with 
that threat.
    Mrs. Hartzler. All right; appreciate what you are doing; 
very, very important. Thank you so much.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you both for being here, for your service.
    I am sorry I missed the early discussions, but I wanted to 
ask you--I guess, extend the discussion on the tour 
normalization and what you are finding in terms of--I think 
this is morale on those unaccompanied tours; because the 
turnover, as I understand it, is about 600, 700 service members 
every month. Is that normal? Is that what we would anticipate? 
And what kind of resources are there, then? And how is that 
affecting readiness in any way on the base?
    General Thurman. Yes, ma'am.
    Congresswoman Davis, first off, most of the turnover we see 
that is occurring out of that 600 to 700 are the lower enlisted 
grades, which are predominantly over there on a 1-year 
assignment.
    As you can imagine, that constant turnover affects the 
crew's stability inside the 2nd Infantry Division, so that is 
something that commander has to deal with.
    In regard to the number on tour normalization, we have 
roughly today around 3,800 families that are command-sponsored. 
There is another 1,700 who are soldiers elected to bring their 
family members over there that are non-command sponsored. So 
that is really what we have.
    We have not achieved the 4,645 as of yet. So that is why, 
based on the current fiscal environment, I looked at, number 
one, could we afford more families over there over and beyond 
the 4,645? And I determined that that is not feasible at this 
time.
    Mrs. Davis. Do you have other concerns that that really are 
affecting the--you know, basically the quality of life for 
service members that are there? Well, in fact, you wouldn't 
necessarily--you don't see those numbers getting to that number 
getting to that level, do you see major differences in terms of 
their ability to conduct their mission?
    General Thurman. Ma'am, I do not.
    I think what makes Korea unique is we have a threat to the 
north. We have a well-stated mission. And I have not seen a 
decline in any morale issues. This requires active leaders, 
leaders that are sensitive to the needs of their service 
members. And that is where I put my effort, in making sure that 
if there is any quality-of-life issues, then we quickly try to 
resolve that.
    Mrs. Davis. Okay.
    And of the people that are--have been deployed--the service 
members, are there numbers, I guess, maybe at some of the 
height of some of the deployments that were actually going into 
Iraq or Afghanistan?
    General Thurman. Yes, ma'am.
    We see a lot of returnees from Iraq and Afghanistan. I 
mean, we are a combat-seasoned force now. And, frankly, we 
welcome the combat experience over there as we work with our 
ROK counterparts because that just helps strengthen our 
capabilities.
    Mrs. Davis. Have you been able to strengthen any of your 
service providers in the medical, mental health areas in order 
to accommodate some of the needs of returning soldiers?
    General Thurman. Yes, ma'am. I have placed a lot of 
emphasis on that, particularly in regard to any type of PTSD 
[Post-Traumatic Stress Disorder]. To make sure that one, we 
have the capabilities there to treat our service members. We've 
de-stigmatized that, and we are very active with our chaplain's 
support programs to make sure we are quickly dealing with any 
service member that may have a problem.
    Mrs. Davis. Because in their case they are really not able 
to go out on to the economy essentially when it comes to 
service providers, is that correct? I mean they really have to 
stay in the family----
    General Thurman. The medical community does write 
consultations that go out if there is some specific need, but 
so far, our capabilities have been very good on the peninsula 
to take care of our service members and their families.
    Mrs. Davis. Thank you very much. Thanks for your service.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Dr. Lavoy and General 
Thurman, thank you so much for joining us today, and thank you 
for your service.
    General Thurman, I thoroughly enjoyed our visit out there 
to your command. And South Korea was a great opportunity to go 
there and understand the challenges that you face. And we 
wanted to make sure that we understood a little bit more about 
those today.
    You speak in your testimony about the North Korean army, 
the Korean People's Army, having about 800 surface combatants. 
Can you tell us what are their capabilities and limitations in 
relation to our fleet structure, our surface combatants that 
are currently forward-deployed in Japan, and the Japanese 
maritime self-defense force ships that are also there in the 
region?
    General Thurman. Congressman Wittman, thanks.
    First off, in regard to maritime, the thing that concerns 
me most out of the 800 combatants are their submarine forces, 
that the North Koreans possess; particularly the ones in the 
West Sea, because that is shallow water out there. And that is 
of concern; and also on the East Sea, so we watch that very 
carefully. And I could go in more detail in a closed session on 
that.
    Their other maritime capabilities, I think some of that has 
atrophied, frankly, from what I can tell. The ROK navy 
maintains a robust patrol capability every day. And some of the 
things we look at with them is obviously our interoperability 
with the U.S. 7th Fleet that supports me out of Japan.
    And for the Japanese defense forces, I don't have any 
purview over those forces other than working through Admiral 
Scott Swift who is the 7th Fleet Commander, but I know he has 
got a very good relationship with the Japanese as well as the 
ROK.
    Mr. Wittman. General, can you tell us what needs do U.S. 
and ROK forces have in the area of ground attack and air-
assault equipment there to support our men and women who serve 
there?
    And also, where are we in relation to manning requirements 
training and equipment requirements there in the region? And 
especially looking of there being a cap 28,500 U.S. forces 
there in the Republic of South Korea, where does that, in 
relation to our needs--and especially in the area of aviation? 
I wanted to get your thought on where we are there with those 
equipment needs, and where we may be adequate or where we may 
be falling short.
    General Thurman. Congressman Wittman, first off, in regard 
to aviation forces, we do not have a full combat aviation 
brigade there. I have asked the Department, as well as the 
Department of the Army, and back through the PACOM and the 
joint staff, to look at adding that battalion back that was 
repositioned out of there to meet requirements for the war in 
Iraq and Afghanistan.
    So I have asked that be relooked; so I would welcome that 
requirement. And that would help with our helicopter fleet 
there.
    In regard to our overall equipping posture, I feel we are 
equipped very well. We are getting many of the new pieces of 
equipment. We just modernized the 2nd Infantry Division with 
new tanks. We got the best tank this Nation can provide, as 
well as new Bradley Fighting Vehicles. The preposition stocks 
are in good shape; we just issued some of that out as we have 
Exercise Foal Eagle going on.
    So I am confident, in regard to ground capabilities, we are 
in pretty good shape. I can talk in closed session about 
precision munitions, and would be more than happy to talk about 
that and some of the other capability gaps we have.
    Mr. Wittman. Very good. Let me ask one final question.
    We talk about conventional capabilities, talk about missile 
threats, let me ask about this: We made a significant 
investment in special operations forces and also asymmetric 
warfare capability. Let me ask you: Are we properly positioned 
from a resources standpoint in that region with our special 
operations forces and asymmetric warfare capability?
    And if not, what do we need to do? And what do you see as 
the major threats from the special operations and asymmetric 
side?
    General Thurman. First off, in regard to the special 
operation forces we have SOCKOR [Special Operations Command 
Korea] Korea, which is the special operations command there 
that works side-by-side with the ROK special operating forces. 
The ROKs have a very good force; we are working with them to 
continue to improve that. So if we go to war tonight, that is 
what I have, in addition to what would be flown in from USSOCOM 
[United States Special Operations Command].
    So we are working with the Department on those unique 
capabilities in regard to U.S. capabilities for soft platforms, 
as an example. And that is one of the things that, as I did my 
assessment, that I looked at that I think we need to improve 
on.
    Secondly, in regard to the North Korean asymmetric 
problems, they have the capabilities to infiltrate. And that is 
probably one of the biggest worries that I see with what they 
have with their forces. And they could do that very quickly, 
whether it be through sleeper cells or whatever. And we can 
also go into that in more detail in a closed forum.
    Mr. Wittman. Thank you Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. If North Korea were to develop an 
intercontinental ballistic missile that could carry a nuclear 
weapon, and was capable of reaching our shores, and they 
launched it toward our Nation, what would our response be?
    Dr. Lavoy. Well sir, I can't speculate on that hypothetical 
situation. We do not assess that North Korea has that 
capability today, but we are aware that North Korea is 
developing both its long-range ballistic-missile capabilities 
and it has continued to work on its nuclear weapons 
capabilities.
    So it is a future threat we are very concerned about. And 
the Department is considering the best responses to this.
    Mr. Bartlett. What do you think North Korea expects our 
response to that would be?
    General Thurman. Congressman, the way I look at this: North 
Korea uses a coercive strategy, and they use that strategy to 
get concessions. First off, they will not, I don't believe, 
give up their capabilities in regard to ballistic missiles 
because they see that as a means to protect the regime.
    In regard to the coercive strategy, we have seen this 
cycle, where they demand concessions; they don't get what they 
want, or they get what they want; they antagonize; they 
provoke; and then they go back into an appease mode. We have 
watched that on a continuous basis. So my sense is they are 
going to continue to use that as long as they follow their 
military-first policy, which I believe goes to protect the Kim 
family and the whole Communist party there.
    Mr. Bartlett. Isn't there a general perception in this 
country, in their country, and any other country watching our 
two nations, that if they launched a ballistic-missile nuclear-
armed toward our shores that we would respond in kind?
    Is that not a general perception?
    General Thurman. I would just say to you: I don't know what 
our responses would be right now on that.
    Mr. Bartlett. I am not asking you that, I was asking you 
what you thought the general perception was among observers of 
this process between our two countries.
    General Thurman. I can't----
    Mr. Bartlett. Isn't there a general perception that if they 
launched a nuclear-tipped weapon toward our shores that we 
would most likely respond in kind?
    General Thurman. I mean, my sense, Congressman, is that is 
what fuels the anxiety and the concern over the North Koreans 
having that capability. And it has got to be dealt with in some 
manner.
    Dr. Lavoy. Could I add to that, Congressman Bartlett?
    Mr. Bartlett. Yes.
    Dr. Lavoy. I think we have a robust deterrent capability. 
And we have national capabilities as well as capabilities in 
the theater that General Thurman commands. And again, it is our 
policy to deter that kind of behavior that you are talking 
about.
    And while we don't assess that they have the capability 
that you outline today, which I think you agree with, it is the 
development of capabilities in this regard is something we are 
very concerned about.
    We maintain a robust deterrent capability to deter that 
kind of action.
    Mr. Bartlett. And they are aware of that robust deterrent 
capability. I think that it is very unlikely that even if they 
had a nuclear weapon capable of reaching our shores that they 
would launch it towards--why would they need to do that if they 
could simply put a medium-range missile on a ship and launch 
from that ship anywhere on our West Coast or our East Coast 
against which we have little defense, and for which we have 
little capability of determining for certain who was 
responsible for it?
    Why isn't that the most likely mode of attack from North 
Korea; if in fact they are interested in attacking us?
    Dr. Lavoy. Well Congressman, I think we have to be aware of 
a whole range of possible attacks or provocative actions that 
the North Koreans could take.
    And over the course of decades of history, they have 
pursued many different kinds of asymmetric means to provoke the 
South and us. So we have to be alive to the full array of 
threats including the ones you outlined.
    Mr. Bartlett. They are certainly evil, I am not sure they 
are idiots. Nor do I think that they are collectively suicidal. 
I think the major threat is the possibility of a launch, which 
they could do tomorrow, with a tramp steamer, and even a Scud 
launcher, which they could buy for $100,000 in the open market.
    And any crude nuclear weapon could take out our whole mid-
Atlantic area with an EMP, could it not?
    I yield back, Mr. Chairman.
    The Chairman. Thank you, gentlemen.
    The committee will now stand in recess as we move to closed 
session; and we will reconvene there.
    Thank you.
    [Whereupon, at 11:37 a.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 28, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

             The Security Situation on the Korean Peninsula

                             March 28, 2012

    The House Armed Services Committee meets today to receive 
testimony about the security situation on the Korean Peninsula. 
Our witnesses are Dr. Peter Lavoy, Acting Assistant Secretary 
of Defense for Asia and Pacific Security Affairs, and General 
James Thurman, Commander of U.S. Forces Korea.
    This is our first opportunity to have a dedicated hearing 
on this topic, but I cannot think of a more opportune time. The 
President's new defense strategy underscores the importance of 
the larger Asia-Pacific theater. Northeast Asia is a dynamic 
region of key strategic importance to the global economy, 
regional stability, and U.S. national security interests. 
What's more, the coming year will bring a number of regional 
leadership transitions--for North Korea, South Korea, China, 
Japan, and Russia. And as some may have forgotten, the Korean 
War isn't officially over--the peninsula remains divided. It's 
home to one of our strongest allies and one of the world's most 
militaristic states.
    In fact, although the North Korean regime is willing to 
starve its own citizens, it maintains the world's fourth 
largest army. North Korea has more than 1 million active duty 
personnel and thousands of artillery systems, tanks, armored 
personnel carriers, aircraft, and surface combatant. More than 
70% of North Korea's combat power is positioned within 90 miles 
of the Demilitarized Zone. This puts our 28,000 troops and the 
24 million citizens of Seoul, the world's fourth largest city, 
easily within the erratic regime's lethal reach.
    Last month, the United States and North Korea announced 
that the regime would stop uranium enrichment and missile 
testing, and allow international inspectors to return to North 
Korea's nuclear facility, in exchange for nutritional aid. But 
2 weeks ago, North Korea said they would launch a long-range 
rocket into space in April--a clear violation of their 
agreement with the Administration. This is typical behavior 
shown by the regime--a cycle of provocations and 
reconciliations designed to get what they want without giving 
up their nuclear weapons program. It's becoming clear that the 
same aggressive, reckless cycle will continue under the new 
North Korean dictator.
    Although the Chinese and Russian governments publicly 
expressed concerns about the planned missile launch, they have 
been unable or unwilling to bring their North Korean ally back 
to the negotiating table. Meanwhile, there are reports that 
North Korea and Iran are working together in the production of 
ballistic missiles.
    In contrast, South Korea is a vibrant democratic nation 
that is one of the world's largest economies and contributes to 
global security. Just a few days ago, South Korea hosted the 
2012 Nuclear Security Summit. Our troops stationed in South 
Korea form the backbone of our mutual defense treaty, promote 
regional stability, and protect U.S. national security and 
economic interests. The readiness and posture of U.S. troops on 
the peninsula are key to stopping a dangerous regime from 
destabilizing the region with unwarranted attacks. Dr. Lavoy 
and General Thurman, we look forward to your testimony shedding 
light on the range of security matters facing us on the Korean 
Peninsula.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

             The Security Situation on the Korean Peninsula

                             March 28, 2012

    I would like to welcome each of our witnesses and to thank 
them for appearing before us this morning. General Thurman, 
Doctor Lavoy, we value your assessments of the security 
situation on the Korean Peninsula, and I look forward to your 
testimony.
    I also wish to commend those service men and women, whose 
daily efforts help to maintain the truce on the Korean 
Peninsula. Their courage and commitment contribute greatly to 
stability and peaceful progress in the region.
    The United States will continue to offer security 
assurances through its forward military presence in East Asia 
and the Western Pacific. To that effect, the Department of 
Defense's new strategic guidance, which highlights a 
rebalancing toward the Asia-Pacific region, emphasizes: 
maintaining existing alliances, expanding cooperative 
international networks, and cultivating long-term strategic 
partnerships. Our deep, historic relationships with the 
Republic of Korea and other regional partners are fundamental 
to fulfilling each of these strategic priorities. Our 
relationship with South Korea is also instrumental to promoting 
mutual prosperity and to realizing the immense potential for 
growth in the region.
    Unfortunately, the North Korean regime continues to defy 
the international community and to present a serious threat to 
its neighbors as well as its own long-suffering populace. North 
Korea's recent pledge to suspend uranium enrichment and its 
nuclear weapons and long-range missile testing is welcome. 
However, North Korea's history of rescinding similar promises 
and resorting to bellicosity, brinksmanship, and open hostility 
requires that we proceed with caution.
    The President has made it clear that North Korea's nuclear 
weapons aspirations are unacceptable, as is North Korea's 
proven preference for provocation. The President has also 
plainly stated that the United States is firmly committed to 
peace and that it is prepared to improve relations with North 
Korea. I am hopeful that the new North Korean leadership will 
take this opportunity to pave a path to lasting peace on the 
peninsula.
    Maintaining our strong and enduring alliance with the 
Republic of Korea is a national security priority. Together, 
our two countries are committed to peacefully improving the 
security situation on the Korean Peninsula. We must provide 
U.S. Forces Korea with the support it needs to uphold its part 
of this shared commitment.
    I look forward to continuing our dialogue on these and 
other important issues. Thank you, Mr. Chairman.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 28, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN

    General Thurman. The total estimated cost for the Yongsan 
Relocation Program is $7 billion. The total estimated cost for the Land 
Partnership Plan is $3.7 billion. [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. How are cyber operations and cybersecurity factored 
into USFK's Theater Security Cooperation Plans?
    Dr. Lavoy. USFK and the Department's Chief Information Officer have 
been working with the Republic of Korea to strengthen military-to-
military cooperation on cybersecurity and information assurance. In 
conjunction with our Cyber Policy office, they have met with ROK 
officials in recent months to advance cyber cooperation and to ensure 
that these issues are discussed at senior bilateral forums.

    Mr. Langevin. I am very concerned about the capabilities of our 
bases on the peninsula to withstand a cyberattack directed against 
outside supporting infrastructure, such as the electrical grid. I have 
had conversations with Secretary Panetta, General Dempsey, and others 
before this committee about our resilience in the face of such a 
threat. Have you examined the ability of our bases in Korea to operate 
and recover in the event of such an attack?
    General Thurman. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. The cyber landscape is a dynamic one that continues 
to evolve at an alarming rate. Can you describe the cyberthreat 
landscape within USFK? What cybertrends are you seeing and which of 
these trends keep you up at night?
    General Thurman. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. What will the reaction of the United States be to North 
Korea illegally--per UN Security Council resolutions--launching this 
missile? Will the U.S. take steps to intercept it, as Japan has 
indicated it may do? Or will the Administration lead from behind and 
merely watch it fly by?
    Dr. Lavoy. The United States had assets in place to track the 
missile launch; at no time was it oriented to threaten the U.S. 
homeland. Following this launch, which was in violation of UN Security 
Council resolutions, the United States has responded firmly by 
obtaining a swift and strong condemnation from the UN Security Council 
reflected in a Security Council Presidential Statement, and by the 
Security Council directing that existing sanctions be strengthened 
through specific actions to be taken to adjust the measures imposed by 
the UN Security Council resolutions 1718 and 1874. We have made clear 
to the new regime in North Korea that further provocations will lead to 
further actions by the United States and the international community.
    Mr. Turner. Have you had any discussions with your South Korean 
counterparts concerning South Korean Government scientists reporting 
that North Korea may have conducted two clandestine nuclear weapons 
tests in 2010? What do you make of their reports? Have you been briefed 
by the U.S. Intelligence Community on these tests? I am concerned 
because, after almost 3 years, we still can only identify North Korea's 
2009 nuclear test as a ``probable nuclear test'' suggesting we have not 
been able to secure sufficient evidence to conclusively identify it as 
a nuclear weapons test. This seems to be a critical capability to 
understand the state of North Korea's nuclear weapons development, 
including its ability to miniaturize a weapon and mount it on a 
ballistic missile.
    Dr. Lavoy. I have extensive conversations with the Intelligence 
Community and place full faith in their judgments regarding North 
Korean nuclear testing. I am confident that North Korea did not conduct 
a nuclear test in 2010. I will continue to ensure that the Department 
of Defense is well-positioned to monitor, collect, and analyze any 
future North Korean nuclear events.

    Mr. Turner. What will the reaction of the United States be to North 
Korea illegally--per UN Security Council resolutions--launching this 
missile? Will the U.S. take steps to intercept it, as Japan has 
indicated it may do? Or will the Administration lead from behind and 
merely watch it fly by?
    General Thurman. The 13 April 2012 North Korean missile launch 
failed, dropping debris throughout the seas west of the Korean 
Peninsula and causing no harm to people or property.
    With consideration of our capabilities, United States Forces Korea 
(USFK)--along with our Korean allies--are prepared to defend the 
Republic of Korea (ROK) against an errant launch or any other 
concurrent or subsequent provocation. In preparing for the 13 April 
2012 North Korean missile launch, USFK primarily supported the U.S. 
response via intelligence, surveillance, and reconnaissance 
capabilities.
    Actions taken against future missile launches will depend on our 
capabilities and guidance from national leadership. A key factor will 
be the level of threat posed by the North Korean missile launch to U.S. 
territory and our allies.
    Mr. Turner. Have you had any discussions with your South Korean 
counterparts concerning South Korean Government scientists reporting 
that North Korea may have conducted two clandestine nuclear weapons 
tests in 2010? What do you make of their reports? Have you been briefed 
by the U.S. Intelligence Community on these tests? I am concerned 
because, after almost 3 years, we still can only identify North Korea's 
2009 nuclear test as a ``probable nuclear test'' suggesting we have not 
been able to secure sufficient evidence to conclusively identify it as 
a nuclear weapons test. This seems to be a critical capability to 
understand the state of North Korea's nuclear weapons development, 
including its ability to miniaturize a weapon and mount it on a 
ballistic missile.
    General Thurman. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. As the U.S. enhances its military presence in the 
Asia-Pacific region and Guam prepares to receive the Marine Corps 
Forces from Okinawa, how important is Guam's role in assisting the USFK 
in fulfilling their mission in the Korean Peninsula? How does the 
overall realignment of forces in the Asia-Pacific region enhance our 
ability to respond to contingencies on the Korean Peninsula?
    Dr. Lavoy. The Department is committed to establishing Guam as a 
strategic hub in the Asia-Pacific region, including an operational, 
deployable Marine Corps presence there. Guam, as the western-most U.S. 
territory, will enable power projection across a range of platforms, 
ensuring efficient response options across a wide range of scenarios. 
This presence is consistent with our strategy to have an operationally 
resilient, geographically distributed, and politically sustainable 
force posture throughout the region and will enhance our ability to 
meet our treaty commitments and respond effectively to the entire range 
of contingencies.
    Ms. Bordallo. With Kim Jong-un now in power, can you expound on the 
progress we made, if any, in reference to the six-nation 
denuclearization talks?
    Dr. Lavoy. Our exploratory talks with North Korea were designed to 
probe the intentions of its new leadership. The President has been 
clear that he is prepared to engage constructively with North Korea. 
However, he has also insisted that North Korea live up to its own 
commitments, adhere to its international obligations, and deal 
peacefully with its neighbors. North Korea's decision to launch a 
ballistic missile violates the moratorium agreement announced on 
February 29, 2012, and violates UN Security Council Resolutions 1718 
and 1874.

    Ms. Bordallo. With a young dictator in power in North Korea, what 
impact, if any, may this cause in South Korea assuming wartime 
operational controls of the ROK forces by 2015? What challenges remain 
in achieving this goal?
    General Thurman. The recent transition of power in North Korea will 
not impact Republic of Korea (ROK)-U.S. agreements to transfer wartime 
operational control in 2015. The bilaterally agreed upon Strategic 
Alliance 2015 Plan carefully lays out a plan that ensures adequate 
capabilities on the part of the ROK to lead the warfight, including a 
U.S. agreement to bridge any shortfalls (U.S. Bridging Capabilities) 
pending full acquisition of that capability by the ROK. Additionally, 
the U.S. has agreed to provide specific capabilities (U.S. Enduring 
Capabilities) that will contribute to the support of the defense of 
Korea for the duration of Alliance. While not yet complete, the 
critical steps needed to be taken to achieve the goal of South Korea 
assuming wartime operational control of the ROK forces by 2015 are well 
under way.
    Ms. Bordallo. As the U.S. enhances its military presence in the 
Asia-Pacific region and Guam prepares to receive the Marine Corps 
Forces from Okinawa, how important is Guam's role in assisting the USFK 
in fulfilling their mission in the Korean Peninsula? How does the 
overall realignment of forces in the Asia-Pacific region enhance our 
ability to respond to contingencies on the Korean Peninsula?
    General Thurman. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. DIA Director LTG Ronald Burgess has warned us that 
North Korea may already have plutonium-based nuclear warheads that can 
be delivered by ICBM. Other experts have noted that nuclear tests 
carried out in 2009 by North Korea are consistent with development of a 
low-yield ``super-EMP'', or electromagnetic pulse, device. What is your 
current assessment of their development of plutonium weapons including 
a super-EMP device and related launch delivery technology?
    General Thurman. [The information referred to is classified and 
retained in the committee files.]
    Mr. Franks. The FY12 NDAA requires the Department of Defense to 
submit by November 1, 2012, a report on current and future military and 
security developments in North Korea. The report should address, among 
other things, the current and probable future course of military-
technological development of the North Korean military. Can you provide 
assurances that an assessment of North Korea's EMP-producing 
capabilities will be included in this report?
    General Thurman. Efforts are currently under way in the Department 
of Defense to develop this report, in coordination with the United 
States Pacific Command, United States Forces Korea, and the 
Intelligence Community. I will have to defer to the Department of 
Defense over the specific contents of the report and whether North 
Korea's EMP capability will be addressed in the final report or not.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Can you expound on any proliferation of technology 
from North Korea to countries in the Middle East?
    Dr. Lavoy. North Korea has a record of global proliferation, 
including to countries in the Middle East. International enforcement of 
UN Security Council Resolutions 1718 and 1874, and counterproliferation 
capacity building through the Proliferation Security Initiative, have 
improved our ability to impede North Korea's proliferation activities.

    Mr. Conaway. Potential miscommunication between North Korean 
actions and South Korean or U.S. actions can pose a very real threat of 
action. In these cases, clear, concise communication between nations 
can play a key role in averting or diffusing any impending disaster. 
What are you doing at your level to make certain North Korea doesn't 
take irreversible military action based on incorrect conclusions 
surrounding U.S. or South Korean activities on or around the peninsula?
    General Thurman. United States Forces Korea works very closely with 
the Republic of Korea to enhance deterrence and reduce the prospects 
for miscalculation. My command engages in a concerted strategic 
communications effort designed to enhance transparency and minimize 
miscalculation. We do this via multiple means including the United 
Nations Command Military Armistice Commission and Neutral Nations 
Supervisory Commission at Panmunjom.
    Mr. Conaway. Based on history and your experience with North Korea, 
can you draw any parallels between present-day North Korea and a 
nuclear Iran, should Iran succeed in obtaining the nuclear capability 
that they are pursuing?
    General Thurman. Both North Korea and Iran are pursuing nuclear 
weapons as a means to safeguard the existing regimes from overthrow by 
external means. The possession of a nuclear capability will also 
provide each regime with a tool of extortion to use against its 
adversaries. However, while Iran is pursuing a nuclear capability from 
a position of strength, North Korea is pursuing this capability from a 
position of weakness. Nuclear weapons would solidify Iran's position as 
the dominant regional military power in the Middle East. For North 
Korea, nuclear weapons would not change the fact that its relative 
position against China, Japan, the Republic of Korea, and the United 
States is weak, although it does provide North Korea with another tool 
with which to extort aid from the international community. Regardless 
of similarities or differences, having either country achieve a viable 
nuclear weapons capability is not in the best interest of the United 
States.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
